     Department of Homeland Security

     ��������������������������



           Los Angeles County, California, 

       Did Not Properly Account for or Expend 

        About $14,000 in FEMA Grant Funds 





DS-13-12                               September 2013

                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security
                                        Washington, DC 20528 I www.oig.dhs.gov


                                           September 9, 2013


MEMORANDUM FOR:                        Nancy Ward
                                       Regional Administrator, Region IX
                                       Fede~al Eme~nagement Agency


FROM:                         ~~       Assistant Inspector General
                                       Office of Emergency Management Oversight

SUBJECT:                              Los Angeles County, California, Did Not Properly Account
                                      for or Expend About $14,000 in FEMA Grant Funds
                                      FEMA Disaster Number 1577-DR-CA
                                      Audit Report Number DS-13-12

We are currently auditing Federal Emergency Management Agency (FEMA) Public
Assistance (PA) grant funds awarded to Los Angeles County, California (County), PA
Identification Number 037-99037-00. Our audit objective is to determine whether the
County accounted for and expended FEMA PA grant funds according to Federal
regulations and FEMA guidelines.

The California Governor's Office of Emergency Services (Cal OES), a FEMA grantee,
awarded the County $54.9 million for costs resulting from storms, flooding, debris flows,
                                                                                   1
and mudslides during the period of December 27, 2004, through January 11, 2005. The
                                                                                       2
award provided 75 percent FEMA funding for 143 large projects and 35 small projects.
Our audit covered the period from December 27, 2004 to May 1, 2013.

Because of the size of the award and number of projects, we divided this audit into
                                                                3
segments, which has resulted in four previous OIG audit reports. This fifth report

1
 At the time of this disaster, the grantee's name was the Governor's Office of Emergency Services (OES).
However, OES became part of Cal EMA from January 1, 2009 to June 30, 2013-including during the time
of our fieldwork. As of July 1, 2013, Cal EMA transitioned back to the California Governor's Office of
Emergency Services (Cal OES).
2
    Federal regulations in effect at the time of the disaster set the large project threshold at $55,500.
3
 These reports include (1) Interim Report on FEMA Public Assistance Grant Funds Awarded to Los Angeles
County, California (DS-12-06; March 2012), (2) LA County Charges FEMAfor Unauthorized Fringe Benefits
Costs (DS-13-07; April 2013), (3) Unneeded Funding and Management Challenges Associated with the
FEMA Grant Awarded to Los Angeles County, California (DS-13-10; June 2013), and (4) Los Angeles County,
California, Did Not Properly Account For and Expend $3.9 Million in FEMA Grant Funds for Debris-Related
Costs (DS-13-11; July 2013).
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
   focuses exclusively on force account costs the County claimed for two large projects
   (2890 and 2940). 4 The County claimed about $5.3 million in total for the two projects,
   which included force account costs of $410,914—the amount we reviewed (see Exhibit,
   Schedule of Costs Questioned). At the conclusion of our audit, we plan to issue our final
   audit report (notwithstanding the issuance of any additional interim reports), including
   any other findings and recommendations.

   We conducted this segment of this performance audit between January 2013 and May
   2013, pursuant to the Inspector General Act of 1978, as amended, and according to
   generally accepted government auditing standards. Those standards require that we
   plan and perform the audit to obtain sufficient, appropriate evidence to provide a
   reasonable basis for our findings and conclusions based upon our audit objective. We
   believe that the evidence obtained provides a reasonable basis for our findings and
   conclusions based upon our audit objective. We conducted this audit by applying the
   statutes, regulations, and FEMA policies and guidelines in effect at the time of the
   disaster.

   We interviewed FEMA, State, and County officials; reviewed judgmentally selected
   project costs (generally based on dollar value); evaluated applicable Federal regulations
   and FEMA guidelines; reviewed cost documentation; and performed other procedures
   considered necessary to accomplish our audit objective. We did not assess the
   adequacy of the County’s internal controls applicable to its grant activities because it
   was not necessary to accomplish our audit objective. However, we gained an
   understanding of the County’s method of accounting for disaster-related costs and its
   policies and procedures for administering activities provided for under the FEMA grant.


                                             RESULTS OF AUDIT

   We reviewed $410,914 that the County claimed for force account labor and equipment
   it used for work under Projects 2890 and 2940. Of that amount, County officials did not
   account for or expend $13,543 according to Federal regulations and FEMA guidelines. 5
   Therefore, we question $13,543, which includes $7,482 ineligible costs and $6,061
   unsupported costs.



   4
     The term force account denotes, where indicated, the subgrantee’s regularly employed personnel
   (labor) or owned equipment.
   5
     Two of our previous audit reports on the County (DS-12-06 and DS-13-11) included several findings on
   these same two projects. For Projects 2890 and 2940, the two reports recommended FEMA deobligate
   about $2.4 million and put those Federal funds to better use and disallow about $2.3 million as ineligible
   or unsupported.

www.oig.dhs.gov                                         2                                                DS-13-12
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
   Finding A: Ineligible Force Account Costs

   County officials improperly claimed a total of $7,482 of force account labor and
   equipment costs already included in FEMA’s equipment rates. Federal regulations and
   FEMA guidelines specify that—

        •	 The FEMA Schedule of Equipment Rates sets the amounts subgrantees may
           claim in Federal assistance funding for force account equipment. (44 CFR
           206.228(a))

        •	   The FEMA Schedule of Equipment Rates provides authorized reimbursement
             rates for subgrantee-owned equipment, and includes parts and labor for normal
             maintenance. Equipment rates typically include operation, insurance,
             depreciation, and maintenance. These rates also cover most damage to
             equipment subgrantees use under emergency conditions. (FEMA Policy 9525.8
             and FEMA Public Assistance Guide, FEMA 322, October 1999, p. 37)

   The County used the FEMA Schedule of Equipment Rates to calculate its force account
   equipment costs. However, the County also separately claimed $7,482 of direct force
   account labor and other normal maintenance costs that the FEMA rates include.
   Specifically, the County claimed—

       •	 $4,377 for force account labor and use of vehicles to maintain County equipment
          it used on Project 2940.

       •	 $3,105 for replacing 20 grader blades it used on Project 2890.

   We therefore conclude that $7,482 in costs claimed for Project 2940 ($4,377) and
   Project 2890 ($3,105) are ineligible because they duplicated costs included in FEMA’s
   equipment rates.

   Cal OES officials agree that FEMA equipment rates cover normal maintenance;
   therefore, claiming such costs separately would duplicate costs. However, Cal OES and
   County officials believe that, in this case, such costs are eligible—per FEMA Policy
   9525.8—because of the extraordinary conditions that existed as a result of severe
   operating conditions.

   This FEMA Policy stipulates that—

             FEMA’s Equipment Rates are expected to cover most damage to equipment
             used under emergency conditions. However, when equipment sustains

www.oig.dhs.gov                                3	                                      DS-13-12
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
           unusual damage or requires extraordinary maintenance as a result of
           emergency use under severe conditions (e.g., high water or very rough
           terrain), and such damage cannot be reasonably avoided, repair and/or
           maintenance costs may be eligible for reimbursement. For eligible
           reimbursement, damage to equipment must be disaster-related and not
           included in the FEMA Schedule of Equipment Rates or in other FEMA-
           approved rates; and Equipment must have been operated in severe or
           unusual conditions.

   We did not find—nor did County or Cal OES officials provide when asked—any
   documentation to support that (1) severe conditions existed that caused unusual
   damage; (2) County personnel operated the equipment in severe or unusual conditions;
   (3) the County’s equipment sustained unusual damage; (4) the County’s equipment
   required extraordinary maintenance as a result of emergency use; (5) the County could
   not reasonably avoid the damage; or (6) damage to equipment was disaster-related and
   not included in the FEMA Schedule of Equipment Rates. Therefore, we maintain our
   finding.

   FEMA officials told us that they will withhold comment on this finding until after they
   review their records and documents associated with the County’s final claim.

   Finding B: Unsupported Force Account Labor Costs

   County officials claimed $6,061 under Project 2940 for various force account labor costs,
   including disaster safety inspections, clerical services, investigations, and transportation
   of supplies, for which they could not provide corresponding, supporting documentation.

   Federal regulations and FEMA guidelines require subgrantees to sufficiently document
   disaster costs claimed to ensure eligibility for FEMA financial assistance. Specifically,
   subgrantees must—

       •	 Adequately document costs for those costs to be allowable under a Federal
          award. (2 CFR Part 225, Cost Principles for State, Local and Indian Tribal
          Governments, Appendix A; Section C(1)(j))

       •	 Establish and maintain accurate records of events and expenditures related to
          disaster recovery work. (FEMA Public Assistance Guide, FEMA 322, October
          1999, pp. 113–114)

       •	 Perform work that is derived from the project’s FEMA-approved scope, to be
          eligible for Federal funding. (FEMA Public Assistance Guide, FEMA 322, October


www.oig.dhs.gov                                 4	                                        DS-13-12
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
           1999, pp. 73 and 115–116; and FEMA Applicant Handbook, FEMA 323,
           September 1999, pp. 21–22, 32, and 52)

       •	 Claim costs for work required as a result of the disaster. (44 CFR 206.223)

       •	 Have fiscal controls and accounting procedures that permit the tracing of funds
          sufficiently to establish that the subgrantee did not use them in violation of any
          legal restrictions, and maintain records to adequately identify the source and
          application of funds for financially assisted activities. (44 CFR 13.20(a)(2) and
          (b)(2))

   We therefore question $6,061 associated with Project 2940 as unsupported because
   County officials did not maintain sufficient documentation to support the costs they
   claimed.

   County officials agreed that they do not have documentation to support these costs, but
   maintained that the costs are nonetheless related to the projects under which they are
   claimed. Cal OES officials stated that it is customary for subgrantees to incur disaster
   safety inspection costs, but also acknowledged that the County does not have sufficient
   documentation to support the charges totaling $6,061. FEMA officials told us that they
   will withhold comment on this finding until after they review their records and
   documents associated with the County’s final claim.

   In addition to identifying $6,061 unsupported charges for Project 2940, we noted that
   County officials may have claimed for Federal reimbursement other force account costs
   for disaster-related projects that are unsupported and not related to the FEMA-
   approved scope of work. Because of the low materiality and volume of these costs
   (across various County projects), we have opted to not calculate (and thus specifically
   question) the costs at this time. The costs relate to items such as patching potholes,
   administrative work, and yard maintenance. County officials acknowledged that they do
   not have documentation to support the eligibility of these claimed costs. We therefore
   urge FEMA, Cal OES, and County officials to review such force account costs and take
   appropriate corrective action.


                                        RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region IX:

   Recommendation #1: Disallow $7,482 (Federal share $5,612) in ineligible (duplicate)
   equipment maintenance costs for Project 2940 ($4,377) and Project 2890 ($3,105)
   (finding A).
www.oig.dhs.gov                                5	                                        DS-13-12
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Recommendation #2: Disallow $6,061 (Federal share $4,546) in unsupported costs the
   County claimed for Project 2940, unless the County can provide adequate
   documentation to support these costs (finding B).

   Recommendation #3: Review the entirety of the County’s FEMA-funded projects to
   determine sufficient support for those force account costs that the County claimed for
   Federal reimbursement, and disallow those costs if the County cannot provide sufficient
   support (finding B).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the audit results with County officials during the course of this audit and
   included their comments in this report, as appropriate. We also provided a written
   summary of our findings and recommendations in advance to FEMA, Cal OES, and
   County officials on December 3, 2012. We discussed the findings and recommendations
   at an exit conference with Cal OES and County officials on January 23, 2013, and with
   FEMA officials on May 1, 2013.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendations. Until we receive and
   evaluate your response, we will consider the recommendations open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we will provide
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Major contributors to this report are Humberto Melara, Director; Devin Polster,
   Audit Manager; Ravi Anand, Senior Auditor; and Montul Long, Auditor.

   Please call me with any questions at (202) 254-4100, or your staff may contact
   Humberto Melara, Director, Western Regional Office, at (510) 637-1463.




www.oig.dhs.gov                               6                                        DS-13-12
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
                                                                                           Exhibit

                                    Schedule of Costs Questioned


                                              Force                     Costs Questioned
       Project
                                Project      Account     Ineligible Force Unsupported
      Number       Project
                                 Costs       Labor +      Account Labor         Force
       / FEMA       Award                                                                Total Costs
                               Claimed /    Equipment      + Equipment        Account
      Category     Amount                                                                Questioned
                               Incurred       Costs            Costs        Labor Costs
      of Work
                                             Claimed        (Finding A)      (Finding B)
      2890 / A    $2,959,095     $565,410      $96,432             $3,105                    $3,105
      2940 / A     2,357,432    2,357,432      314,482              4,377         $6,061     10,438
       Totals     $5,316,527   $2,922,842      410,914             $7,482         $6,061    $13,543




www.oig.dhs.gov                                     7                                            DS-13-12
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
                                                                   Appendix


                                      Report Distribution

   Department of Homeland Security

   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Chief Procurement Officer
   Audit Liaison (Job Code G-12-010)
   Director, Recovery Division, Region IX
   Deputy Director, Recovery Division, Region IX
   Audit Liaison, Region IX
   Audit Followup Coordinator

   Grantee (California Emergency Management Agency)

   Secretary
   Executive Assistant to the Secretary
   Chief of Staff
   Audit Liaison

   State (California)

   California State Auditor, Bureau of State Audits




www.oig.dhs.gov                                8                       DS-13-12
                           OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security
                                                                          Appendix
                                                                         (continued)

   Subgrantee (Los Angeles County, California)

   Chief Executive Officer
   Senior Manager
   Interim Manager
   Principal Accountant-Auditor

   Congressional Oversight and Appropriations Committees, as appropriate, including:

   Senate Committee on Appropriations, Subcommittee on Homeland Security
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations, Subcommittee on Homeland Security
   House Committee on Homeland Security
   House Committee on Oversight and Government Reform

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner




www.oig.dhs.gov                               9                                   DS-13-12
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
